                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                       EXPORT-IMPORT BANK
                                                        of the UNITED STATES




           Fiscal Year 2012
     Information Security Program
          and Practices Audit


                                                                 March 22, 2013
                                                                  OIG-AR-13-04
To:         Fernanda Young
            Chief Information Officer

From:       Rebecca Sharek
            Assistant Inspector General for Audits

Subject:    Fiscal Year 2012 Information Security Program and Practices Audit

Date:       March 22, 2013


This memorandum transmits Audit Report OIG-AR-13-04, “Independent Audit of
Export-Import Bank’s Information Security Program for Fiscal Year 2012.” Cotton &
Company LLP, under a contract issued by the Office of Inspector General, performed
the audit. The objective of the audit was to determine whether the Export-Import
Bank (Ex-Im Bank) developed adequate and effective information security policies,
procedures, and practices in compliance with the Federal Information Security
Management Act of 2002 (FISMA).

The audit found that overall Ex-Im Bank continues to improve and strengthen its
information security program and is addressing the challenges in each of the areas
that the Office of Management and Budget identified for the fiscal year 2012 FISMA
review. However, Ex-Im Bank is not compliant with all FISMA requirements. The
report contains three recommendations for corrective action. Management
concurred with the recommendations and we consider management’s proposed
actions to be responsive. The recommendations will be closed upon completion and
verification of the proposed actions.

We appreciate the courtesies and cooperation extended during the audit. If you
have questions, please contact me at (202) 565-3169 or rebecca.sharek@exim.gov.


cc:     Fred Hochberg, Chairman and President
        John McAdams, Senior Vice President and Chief Operating Officer
        Audit Committee
        David Sena, Senior Vice President and Chief Financial Officer
        Patricia Wolf, Controller
        John Lowry, Director, Information Technology Security and System
           Assurance




                  811 Vermont Avenue, NW Washington, D.C. 20571
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
